No.
'

Supreme Court, O.S.
FILED

...APR 7 7,2*:
IN THE

. OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

Todd A..Winkler
• (Your Name)

— PETITIONER
VS.

The State of California

— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
E Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
The Court of Appeal of the State of California

□ Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
□ Petitioner’s affidavit or declaration in support of this motion is attached hereto.
□ Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
.

□ The appointment was made under the following provision of law:

_____
, or

□ a copy of the order of appointment is appended.

CS

O,L

(Signature)

|
\

.*!
:

IN THE

Court of Spiral of tlje S>tate of California
IN AND FOR THE

THIRD APPELLATE DISTRICT

THE PEOPLE,
- Plaintiff and Respondent,

mar

v.
TODD ALAN WINKLER,
Defendant and Appellant.

0 .2 2015

Court ofAppeal, Third Appellate District
Dosoa C. Fawcstt, Cisrk
---.Deputy

C077992
El Dorado County
No. P13CRF0308
BY THE COURT:
Athena Shudde, Attorney at Law, is appointed as counsel for appellant in the
above proceeding. This appointment includes the authority to file a petition for review
in the Supreme Court if the decision is adverse to the client or an answer should the
other side file a petition for review.
Since the record on appeal has been filed in the above case, appellant's opening
brief is to be served and filed by March 30, 2015.
The court expects counsel to forthwith review the record on appeal and when
necessary file a motion for augmentation of the record in compliance with rule 8.340(c)
of the California Rules of Court within 30 days or less of the date of this order. Exhibits
may be obtained pursuant to rule 8.224 and should therefore not be included in a
motion for augmentation.
Dated: March 2, 2015
RAYE, P.J.

cc: See Mailing List

